U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




   OFFICE OF THE SECRETARY

         Successful Oversight of GOES-R
         Requires Adherence to Accepted
           Satellite Acquisition Practices


  Final Inspection Report No. OSE-18291/November 2007




       Public Release




                            Office of Systems Evaluation
                                            ",+f."'"f   OF Co
                                           If      ~.,,~
                                       i        ~'"~              "       UNITED STATES DEPARTMENT OF COMMERCE
                                       ..                                 The Inspector General
                                       'f:,..~
                                          <"()   ~          .

                                                            .
                                                &'~-4TES ciit'
                                                                    ~
                                                                 ,.'"
                                                                     CJ
                                                                          Washington, D.C. 20230




                                NOV 2 0 2007




MEMORANDUM          FOR:      John J. Sullivan
                              General Counsel

                              Conrad C. Lautenbacher, Jr.
                              Under Secretary of Commerce for Oceans and Atmosphere and
                              NOAA Administrator


FROM:
                              Elizabeth
                                    ~w
                              Acting Inspector General

SUBJECT:                      Final Inspection Report No. OSE-18291
                              Successful Oversight ofGOES-R Requires Adherence to Accepted
                              Satellite Acquisition Practices

This memorandum transmits the final report on our review of the Geostationary Operational
Environmental Satellite-Series R (GOES-R) Program. We assessed whether the Department and
NOAA have established effective mechanisms for handling their expanded responsibilities to
oversee and manage this complex acquisition. We found that the life-cycle process for GOES-R
lacked key features of accepted satellite management practices, and this has contributed to
additional cost and decreased development time. Our recommendations focus on aligning
GOES-R oversight and management with accepted practices.

In responding to our draft report, the Department disagreed with certain of our findings and with
our recommendation to implement procedures for GOES-R key decision point reviews based on
NASA's satellite life-cycle procedure. It instead plans to use its existing procedures, suggesting
the application of NASA's procedural guidance is more appropriately the role of NOAA. This
being the Department's viewpoint, we believe it should delegate decision authority for key
decision point C/D to NOAA, which is taking steps to improve oversight based on the NASA
directive.

NOAA concurred with our findings and recommendations and is working with NASA to finalize
the GOES-R Management Control Plan, which will document the approach for key decision
point reviews and how NASA's satellite life-cycle procedures will be applied to all parts of the
joint NOAA-NASA program.
The last chapter of the report discusses the Department and NOAA's responses to the draft
report, which are included in their entirety in the appendices. We request that each organization
provide us with an action plan describing the actions it has taken or plans to take in response to
our recommendations within 60 calendar days of the date of this report. Please note that for
certain recommendations, our discussion of the Department's response highlights topics we
would like the action plan to address. Appropriate sections of the GOES-R Management Control
Plan may serve as NOAA's action plan.

We appreciate the cooperation and courtesies extended to us during our review by the
Department, NOAA and NASA. If you would like to discuss this report or action plan, please
call me at (202) 482-4661 or Judith Gordon, assistant inspector general for systems evaluation, at
(202) 482-5643.

Attachment

cc: Otto J. Wolff, Chief Financial Officer and Assistant Secretary for Administration,
       U.S. Department of Commerce
    Suzanne Rilding, Acting ChiefInformation Officer, U.S. Department of Commerce
    Trudy Gallic, Audit Liaison, U.S. Department of Commerce
    Mary M. Glackin, Acting Deputy Under Secretary for Oceans and Atmosphere
    Joe Klimavicz, ChiefInformation Officer, National Oceanic and Atmospheric
        Administration
    Mack Cato, Director, Audit, Internal Control and Information Management Services,
        National Oceanic and Atmospheric Administration
    Evelyn R. Klemstine, Assistant Inspector General for Auditing, National Aeronautics
               and Space Administration




                                                 2
U.S. Department of Commerce                                                                                       Final Report OSE-18291
Office of Inspector General                                                                                               November 2007

                                                               CONTENTS

Summary .............................................................................................................................. i
Introduction......................................................................................................................... 1
Objectives, Scope, and Methodology ................................................................................. 6
Findings and Recommendations ......................................................................................... 8

   I. The Failure to Follow Accepted Space Acquisition Management Practices
      Contributed to Additional Cost and Decreased Development Time .........................8

        A. Lack of Accepted Life-Cycle Process Left Oversight Officials Without
           Sufficient Program Information for First Key Decision Point Review............... 9

        B. Decision Point C/D Provides Critical Review, But Does Not Obviate Need
           for Future Key Decision Points ......................................................................... 12

        C. Procedures for Decision Point Reviews Are Inadequate for Providing
           Decision Makers With Needed Information ..................................................... 13

        D. NOAA Has Not Adapted Relevant NASA Processes to GOES-R ................... 14

        E. The Department Lacks Procedures For Reporting and Approving Major
           Deviations From and Changes To Baseline ...................................................... 15

Department and NOAA Response and Our Evaluation.................................................... 17
Appendix I: Office of the Secretary’s Response.............................................................. 22
Appendix II: NOAA’s Response ..................................................................................... 28
U.S. Department of Commerce                                                 Final Report OSE-18291
Office of Inspector General                                                         November 2007

                                          SUMMARY

The National Oceanic and Atmospheric Administration and NASA are 7 years into the planning
and development of the next series of Geostationary Operational Environmental Satellites
(GOES)—dubbed GOES-R—which provide the United States with critical meteorological data
for weather observation, research, and forecasting. For the first time, NOAA, rather than NASA,
has the lead role in GOES-R’s program management and acquisition, thus giving the Department
direct oversight authority for both the ground and space segments.

NOAA decided to use a new acquisition approach for GOES-R: award of a single prime contract
for the space and ground segments. This was a significant departure from previous GOES
acquisitions, which used separate contracts for the segments and NASA as the systems
integrator. This change, coupled with the Department and NOAA’s expanded oversight and
management roles, added risk to an already highly complex undertaking.

In an October 2005 action known as key decision point B, the Secretary approved the award of
three contracts for program definition and risk reduction. At that time, the program cost estimate
was approximately $6.2 billion. Roughly 7 months into the program definition phase, data from
the contractors and from an independent cost estimate prompted NOAA to revise projected
GOES-R costs to $11.4 billion.

An independent review team subsequently confirmed the accuracy of the new estimate and
expressed concerns about the acquisition approach. At about the same time, problems with the
National Polar-orbiting Operational Environmental Satellite System (NPOESS) were putting
pressure on NOAA and Commerce to reassess the approach to GOES-R. In response, NOAA
revised the acquisition strategy to more closely align with the traditional approach in which
NOAA would acquire the ground segment and NASA would acquire the satellites and perform
systems integration, but with NOAA retaining the lead role in program management and
acquisition.

The changes in acquisition strategy should significantly bolster the chances of success on
GOES-R. To reduce costs, NOAA has eliminated several planned satellites and instruments,
bringing the cost estimate down to $6.96 billion. However, in preparation for key decision
point C/D, GOES-R scope and estimated costs are being reevaluated.

Department and NOAA’s Expanded Roles, Acquisition and Program Risks Prompt OIG
Review

We assessed, among other things, whether the Department and NOAA have established effective
oversight mechanisms for handling their expanded roles and are leveraging NASA’s oversight
expertise. We found that the life-cycle process for developing GOES-R omitted key features of
accepted satellite acquisition processes, leaving GOES-R at risk for additional problems. Our
specific findings are as follows:




                                             i
U.S. Department of Commerce                                                  Final Report OSE-18291
Office of Inspector General                                                          November 2007

Lack of accepted life-cycle process left oversight officials without sufficient program
information for first key decision point review. Viewed by the Department and NOAA solely as
a procurement milestone, key decision point B was held at a much earlier stage in the program’s
life cycle than prescribed by standard satellite acquisition processes and without the benefit of a
comprehensive program assessment and independent reviews that are key to the NASA model.
Department and NOAA officials therefore did not have the information they needed to make
sufficiently informed decisions about the path forward for GOES-R, namely, thorough and
accurate evaluations of cost, schedule, technological readiness, acquisition strategy, and risks.
An independent assessment of the program was commenced some 7 months after decision point
B, ultimately confirming escalating cost estimates, unacceptable risks, and a flawed acquisition
strategy. The changes that followed cost the agency time and money: $17 million to redefine the
overall system architecture and management structure, and a 9-month delay in the planned
schedule for awarding the space and ground contracts.

GOES-R plan needs additional key decision points. In NASA and DOD space acquisition
processes, decision point C occurs at the completion of preliminary design, and a separate
decision point D is conducted before the system is built. Although GOES-R is roughly 2 years
from completing preliminary design and even further from being ready to build the first satellite,
its final planned decision point—decision point C/D—is expected to occur soon. The purpose is
to obtain Department authorization for releasing solicitations for the multibillion-dollar space
and ground segment contracts. Particularly in light of the significant program changes since key
decision point B, we agree it is essential for the Department and NOAA to thoroughly review all
aspects of the program in order to make well-informed decisions about how to proceed before
releasing the solicitations—giving strong consideration to the findings and recommendations
from the independent assessments. However, after decision point C/D, additional key decision
points are needed at the end of subsequent life-cycle phases to determine GOES-R’s readiness to
proceed.

Procedures for decision point reviews are inadequate. Commerce lacks adequate capacity and
experience for effective oversight of the highly technical and complex issues of space
acquisitions and access to independent reviewers of its own. In their absence, Commerce should
consult directly with NOAA and NASA independent reviewers as a key component of the
decision making at each decision point. Adequate preparation and consultation with experts will
help the Department identify any serious program weaknesses and determine the best path
forward for GOES-R. In addition, both the Department and NOAA should use NASA Procedural
Requirement (NPR) 7120.5D for satellite acquisition as guidance to better focus these reviews on
the key objectives and products of each program phase.

NOAA has not adapted relevant NASA processes to GOES-R. The GOES-R memorandum of
agreement between NOAA and NASA stipulates that the space segment will be managed
according to NPR 7120.5D, but the agreement is silent on NOAA’s use of the directive for the
ground segment, nor has NOAA defined how these processes will apply to that segment or to the
overall program.




                                             ii
U.S. Department of Commerce                                                 Final Report OSE-18291
Office of Inspector General                                                         November 2007



The Department lacks procedures for reporting and approving major deviations from and
changes to baseline. Commerce has not described its requirements and procedures for reporting
and managing variances for GOES-R, or determined thresholds for holding special decision
reviews when considering program enhancements.


What We Recommend

We recommend that Commerce strengthen GOES-R management and outcomes by

   •   Planning for additional GOES-R key decision point reviews in accordance with NPR
       7120.5D guidance.

   •   Conducting key decision point reviews in a manner consistent with NPR 7120.5D
       guidance, to include identifying the decision criteria as well as the roles and
       responsibilities of those involved, what information will be presented for the decision,
       and how independent reviewers will be consulted and their assessment results used.

   •   If key decision point C/D or subsequent decision points are delegated to NOAA, ensuring
       that the Department and NOAA’s authorities are clearly delineated.

   •   At all key decision points, ensuring any decisions made on the basis of assumptions or
       findings that differ from those of the independent assessments are documented and the
       rationale explained.

   •   Establishing thresholds and procedures for reporting and approving major deviations
       from GOES-R’s capability, cost, and schedule baseline, as well as enhancements to the
       baseline.

   •   Completing and implementing the Department’s major system acquisition policy.


We also recommend that NOAA strengthen GOES-R management and outcomes by

   •   Planning and documenting its approach for decision point C/D and subsequent decision
       points if the agency receives decision authority.

   •   Describing in the Management Control Plan or related documentation how NPR 7120.5D
       will be used for managing and overseeing the overall GOES-R program and ground
       segment, to include identifying planned deviations from NPR 7120.5D and describing the
       rationale for the deviations and compensating mechanisms that will be used.




                                            iii
U.S. Department of Commerce                                                Final Report OSE-18291
Office of Inspector General                                                        November 2007

Department and NOAA Response to Draft Report and OIG Comments

In responding to our draft report, the Department disagreed with certain of our findings and with
our recommendation to implement procedures for GOES-R key decision point reviews based on
NPR 7120.5D, suggesting that application of NASA’s procedural guidance is more appropriately
the role of NOAA. The Department’s response does not, however, clearly define its own role in
the process or explain precisely what actions it intends to take to execute that role, so we are
requesting clarification in the action plan. In any event, based on the Department’s position
regarding NPR 7120.5D, we are persuaded that decision authority for KDP C/D should be
delegated to NOAA.

NOAA responded that overall the draft report was fair and accurate and concurred with the
recommendations directed to the Under Secretary for Oceans and Atmosphere.

We discuss the Department’s and NOAA’s responses in the last chapter of the report and include
them in their entirety in appendixes I and II.




                                           iv
U.S. Department of Commerce                                                                  Final Report OSE-18291
Office of Inspector General                                                                           November 2007

                                                INTRODUCTION

NOAA’s Geostationary Operational Environmental Satellites (GOES) have, since 1975,
provided the United States with critical meteorological data for weather observation, research,
and forecasting. These satellites look for “atmospheric triggers” for severe weather conditions
such as tornadoes, flash floods, and hurricanes; monitor the development of storms; and track
their movements. Two GOES satellites maintain a constant view of the Earth from a 22,300-mile
orbit, focusing on the eastern and western United States and adjacent oceans. Three GOES
satellites are currently in orbit—GOES-11 and GOES-12 are operational; GOES-13 is stored in
orbit as a backup should one of the others fail.

                                 Figure 1. GOES Satellite Constellation and Coverage




                                              GOES-11           GOES-12
                                              135° West         75° West




                                                       GOES-13
                                                       105° West
                                                        (Spare)



                           Source: NOAA

The GOES program is fully funded by NOAA, but development is shared with NASA.
Traditionally, NOAA has established system requirements, acquired the ground segment (ground
systems and algorithms), and operated the satellite, while NASA acquired the space segment
(spacecraft, instruments, and launch vehicle and services). The instruments, satellite, and ground
systems have been developed through separate contracts, with the government responsible for
system-level integration.

A New Direction for GOES-R

The next series of geostationary satellites—GOES-R 1 —is the first technological advance in
GOES instrumentation since launch of the GOES I-M series began in 1994, and is designed to be
a major step forward in environmental monitoring. According to NOAA, the data transfer rate
from satellite to ground station will increase from 2.1 Mbps to 120 Mbps, 2 and the number of
environmental products will increase from 41 to 160. With original estimated costs exceeding
$6 billion, GOES-R is one of the largest and most expensive programs within the Department of
Commerce.


1
    GOES satellites in production are given letter designations, which are changed to numbers after reaching orbit.
2
    Mbps is millions of bits per second.

                                                            1
U.S. Department of Commerce                                                                             Final Report OSE-18291
Office of Inspector General                                                                                      November 2007



NOAA and the Department pursue a new management and acquisition approach. Although
the Department has overall responsibility for the GOES program, it has had limited decision-
making authority over the space segment, the most complex and expensive part of GOES. To
remedy this situation for GOES-R, NOAA and NASA signed an interim agreement in 2005 that
gave NOAA the lead role in management and acquisition, thus giving the Department direct
oversight authority for both the ground and space segments. As shown in figure 2, a consolidated
NOAA-NASA program office for both segments was established under the direct control of a
single system program director, who is a NOAA employee. Figure 3 shows the decision-making
hierarchy at Commerce.

   Figure 2. Commerce, NOAA, and NASA Roles in GOES-R Program Management and Oversight

                                                           Commerce
                                                                                                 Oversight

                           NOAA                                                                  Program Office
                                                            NOAA
                     Program Management
                           Council

                                                            NESDIS


                                             System Program Director (SPD): NOAA                            GSFC
      Program Scientist                               Deputy SPD: NOAA                               Program Management
        Lead: NOAA                                   Assistant SPD: NASA                                   Council

                                    Program Control                      Program Systems Engineering
                                     Lead: NOAA                                 Lead: NASA

                              Program Mission Assurance                           Contracts
                                    Lead: NASA                                   Lead: NOAA



                          Flight Project (Space Segment)                Operations Project (Ground Segment)
                             Project Manager: NASA                           Project Manager: NOAA
                                  Deputy: NOAA                                    Deputy: NASA

      NESDIS - National Environmental Satellite, Data, and Information Service
      GSFC - Goddard Space Flight Center
   Source: NOAA


NOAA decided to use a new acquisition approach for GOES-R, similar to that used for the
National Polar-orbiting Operational Environmental Satellite System (NPOESS): a single prime
contract for the space and ground segments. NOAA expected the approach would improve
management and end-to-end system integration, simplify the government’s interface with
industry, and allow NOAA and the Department to focus on technical assessment and oversight.
This significant departure from previous GOES acquisitions, coupled with the Department’s
expanded management and oversight role, added risk to an already highly complex undertaking.




                                                                  2
U.S. Department of Commerce                                                              Final Report OSE-18291
Office of Inspector General                                                                       November 2007


                               Figure 3: Commerce Decision-Making Hierarchy

                                                  Secretary of Commerce
                                                  Key Decision Authority

                                           Assistant Secretary for Administration
                                                   Acquisition Executive


                                                      Under Secretary
                                                 for Oceans and Atmosphere
                                                   Head of Operating Unit


                                                  Deputy Under Secretary
                                                for Oceans and Atmosphere
                                                 Source Selection Official

                                                  Assistant Administrator
                                         National Environmental Satellite, Data, and
                                                    Information Service

                                                 GOES-R System Program
                                                       Director

                               Source: NOAA



The NOAA program office devised a three-step management/acquisition strategy (figure 4). First
would come a series of twelve industry-led contracts and internal government studies to identify
potential concepts and architectures at the instrument and system levels, as well as potential risks
and mitigation approaches. Next, three contracts for program definition and risk reduction would
be awarded to (a) study the feasibility of meeting user requirements, (b) develop the architecture
                                                                and system concept, (c) reduce risk, and
Figure 4. GOES-R Life-Cycle Phases, Key Decision Points,        (d) establish cost, schedule, and
and Associated Contracts                                        performance baselines for the final
   Concept/       Program         Acquisition and Operation
                                                                acquisition and operation phase. Finally,
  Architecture   Definition/                                    one prime contractor would be selected
 Development        Risk                                        for acquisition and operations. The
                 Reduction
      12             3                        1
                                                                contractor would finalize the system
   Contracts     Contracts     System Prime Contract (Original) design, complete development of the
    ($12M)        ($90M)                 ($6 Billion)           instruments, 3 complete the system-level
                                                                integration and testing, and ultimately
                                                                deploy the satellites. NOAA would
           KDP B          KDP C/D
                                                                award and manage this contract.
Source: NOAA
                                                       Based on the completion of the first
step’s study contracts, the Department approved the acquisition plan for the next step on January
27, 2005. The program office subsequently sought and evaluated program definition/risk


3
 Because the instruments have long lead times, NASA awarded and managed the contracts initially and then
planned to transition them to the prime integration contractor, who would oversee completion of the instruments’
development.

                                                             3
U.S. Department of Commerce                                                                   Final Report OSE-18291
Office of Inspector General                                                                            November 2007

reduction proposals and recommended three to the Under Secretary of Commerce for Oceans
and Atmosphere, who in turn conveyed these recommendations to the Secretary of Commerce.
On October 4, 2005, the Secretary approved the award of three contracts. This action was known
as key decision point B (KDP B). At that time, the program cost estimate was approximately
$6.2 billion, which was consistent with previously submitted Congressional budget requests for
FY 2006 and FY 2007. The three contracts were awarded on October 21, 2005, for a total of $90
million.

Escalating cost estimates prompt major program changes. In early May 2006, about 7 months
after the award of the three contracts, cost estimates from the contractors and results of an
independent cost estimate 4 prompted the program office to revise GOES-R costs to
approximately $11.4 billion, nearly double the FY 2006 and 2007 budget requests. NOAA began
working with the program office to find ways to cut costs. At about the same time, the agency
convened an independent review team made up of former government and industry leaders in
space acquisitions to assess the entire program, including the various cost estimates. The review
team determined that the new estimate was more accurate than the original $6.2 billion estimate.
It recommended, among other things, that NOAA
return to the traditional GOES                                           GOES-R Instrumentation

management/acquisition approach of handling the            Five instruments were originally planned for
ground segment while NASA handled the space                GOES-R, but NOAA scrapped the Hyperspectral
                                                           Environmental Suite as cost estimates ballooned
segment because building internal capacity at NOAA         and technical issues arose:
for the space segment would be too difficult. The          Advance Baseline Imager. An advanced version of
team also recommended that NOAA provide fully              the current series of GOES imagers, which will have
                                                           a greater number of channels, improved spatial
developed instruments to the space segment                 resolution, and faster Earth coverage rates to
contractor, maintain a 25 percent management reserve provide more accurate measurements and improve
                                                           forecasts of hurricanes, tornadoes, floods, and other
to cover unanticipated costs, and adopt more realistic     severe weather.
inflation indices and costing strategies.                  Solar Imaging Suite. Designed to monitor solar
                                                                     activity, including an X-ray instrument for tracking
                                                                     and measuring solar flares.
At about the same time, problems with the NPOESS
program were bringing pressure to bear on NOAA                       Space Environment In-Situ Suite. Designed to
                                                                     provide continuous measurements of Earth’s
and Commerce to ensure the GOES-R strategy was                       ambient magnetic field along with the proton,
sound. NPOESS—a joint project of NASA, NOAA,                         electron, and alpha-particle fluxes at geostationary
                                                                     orbit.
and Defense but wholly funded by the latter two
                                                                     Geostationary Lightning Mapper. Designed to
agencies—was well behind schedule and showing                        continuously track the intensity, frequency, and
staggering increases in life-cycle costs. The original               location of lightning discharges in order to help
                                                                     predict severe storms.
estimate of $6.5 billion had risen by more than 25
                                                                     Hyperspectral Environmental Suite. Comprised of
percent, triggering the Nunn-McCurdy provision of                    a sounder and multi-channel imager, and designed
the FY 1982 National Defense Authorization Act,                      to provide high-resolution hemispheric sounding,
                                                                     mesoscale soundings of severe weather systems,
which required DOD to certify the program as                         and coastal waters imaging.
essential to national security, redefine the program to
meet acceptable cost estimates, and establish a
management structure to keep costs in check.



4
 Independent cost estimates and assessments are prepared by an entity that is not under the supervision, direction, or
control of the program so that they will be unbiased.

                                                          4
U.S. Department of Commerce                                                 Final Report OSE-18291
Office of Inspector General                                                          November 2007



NOAA modifies acquisition strategy and scales back GOES-R. In response to the escalating
cost estimates, findings of the review team, and lessons learned from NPOESS, the decision was
made to change the acquisition strategy. On March 28, 2007, NOAA announced the change,
which would more closely align the GOES-R acquisition with the traditional approach: NOAA
would acquire the ground segment and NASA would award separate contracts for the space
segment (spacecraft, instruments, and launch vehicle). As with previous GOES acquisitions,
NASA would be in charge of system engineering and integration, but with the goal of eventually
transitioning this responsibility to NOAA. The decision-making structure was retained: the
GOES-R program office remained under NOAA, and the Department maintained direct
oversight authority. On June 15, 2007, NOAA and NASA signed the final memorandum of
agreement reflecting this management and acquisition approach. These changes should
significantly bolster the chances of success on GOES-R.

In addition, the Department and NOAA scaled back GOES-R, agreeing to a $6.96 billion budget
for the total program. Two of four satellites originally planned for production were eliminated, as
was one of the five instruments: the Hyperspectral Environmental Suite (HES) was proving to be
too technically challenging to develop and far more expensive than expected. At this writing,
three instruments are under contract for development—the Advance Baseline Imager (ABI), the
Space Environmental In-Situ Suite, and the Solar Imaging Suite. The program office decided to
divide development of the Solar Imaging Suite into two separate contracts, one of which was
awarded in late August 2007 and the other in September 2007. The Geostationary Lightning
Mapper contract is scheduled to be awarded in late November 2007. The three program
definition contracts ended on April 20, 2007. The next key decision point—KDP C/D—was
planned for September 2007, but has been postponed. It is intended to authorize release of
requests for proposals for the ground and space segment contracts. In preparation for KDP C/D,
the scope and estimated costs of GOES-R are being reevaluated.




                                                5
U.S. Department of Commerce                                                    Final Report OSE-18291
Office of Inspector General                                                             November 2007

                    OBJECTIVES, SCOPE, AND METHODOLOGY

We undertook this evaluation because of GOES-R’s cost, complexity, and associated risks; its
importance to the nation’s weather forecasting capabilities and the public’s safety; the substantial
cost increases and schedule delays that historically plague satellite programs, as evidenced most
recently by NPOESS; and the Department and NOAA’s expanded oversight and management
roles for a major satellite acquisition—roles for which they have little experience. We sought to
determine whether the Department and NOAA have

   1. Established effective oversight organizations, policies, and procedures for GOES-R that
      support informed decision making about budgets, acquisitions, and program progress;
   2. Put mechanisms in place to successfully leverage NASA’s oversight expertise;
   3. Identified risks and mitigation strategies for furnishing instruments to the prime system
      integration contractor; and
   4. Developed and implemented sound award fee plans that promote excellent contractor
      performance.

We began this evaluation as a joint project with NASA OIG, in which our counterpart focused
on determining whether NASA program management councils effectively identify and review
program issues and progress, and whether NASA has procedures and processes in place to
adequately identify, mitigate, and report technical risks in accordance with agency policy. Our
intention was to issue either one report, or separate reports under one cover letter, if crosscutting
areas emerged. But because NASA OIG’s work is ongoing and has not resulted in any findings
to date, we are issuing this single report on our findings at Commerce.

After the acquisition approach was modified to include NASA providing fully developed
instruments to the space segment contractor, we concluded that NASA was prepared to identify
and mitigate potential risks since it would be following its standard practice. At the time of our
fieldwork, an award fee plan had been established for the ABI only. Our analysis of data for the
first four award fee periods indicated that the plan is being used properly—as the contractor
began experiencing problems developing the instrument, NASA reduced fee payments for
lagging performance. We therefore have no findings relating to these two objectives.

Our fieldwork entailed review of applicable federal legislation, Department of Defense (DOD)
and NASA space acquisition policies and procedures, space acquisition reports issued by the
Government Accountability Office (GAO), Department policies and procedures, and interviews
with Department, NOAA, and NASA officials, and GOES-R program office managers and staff.
We also reviewed a variety of GOES-R documents including the program plan; system
engineering management plans; memorandums of agreement (MOA); key decision point B
briefings and decision memorandum; cost estimation briefings; NOAA briefings to the
independent review team and the independent review team’s report; NOAA program
management council briefings and minutes from January 2006 to April 2007; Goddard Space
Flight Center program management council briefings starting from January 2004 to April 2007;
GOES-R contractors’ deliverables for system requirements and concepts and government
furnished instruments; and award fee plans and their implementation.

                                                  6
U.S. Department of Commerce                                                 Final Report OSE-18291
Office of Inspector General                                                          November 2007



We conducted the majority of our fieldwork from October 2006 to April 2007. We performed
this evaluation in accordance with the Quality Standards for Inspections issued by the President's
Council on Integrity and Efficiency, dated January 2005, and under authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated August 31,
2006.




                                                7
U.S. Department of Commerce                                                           Final Report OSE-18291
Office of Inspector General                                                                    November 2007



                           FINDINGS AND RECOMMENDATIONS

I. The Failure to Follow Accepted Space Acquisition Management Practices Contributed
   to Additional Cost and Decreased Development Time

The Department and NOAA, in assuming oversight and management responsibility for the entire
GOES-R program, took on roles for which neither was adequately prepared. Neither had ever
managed an acquisition project of this magnitude and complexity or had experience directly
overseeing satellite acquisition. Neither had a workable oversight structure for major
acquisitions. Ten years had passed since the Department had been involved in a key decision
point review. And its policy for large system acquisitions was based on OMB guidance (Circular
A-109) that designates approval authority for key decision points, in this case, the Secretary of
Commerce, but does not specify procedures or assessment criteria for moving a program
forward. 5

Acquisitions of complex and costly satellites have a well-documented history of budget overruns
and schedule delays, and earlier GOES series have been no exception. The GOES I-M budget
increased from an initial estimate of $640 million to $2 billion and the program was 5 years late
in delivering the first satellite. Agencies that engage in satellite development as a major part of
their mission—such as NASA and DOD—have well-defined practices for minimizing these risks
throughout a project’s life-cycle. 6

NOAA—in developing its approach for GOES-R in 2005—did not follow accepted satellite
acquisition practices. Figure 5 compares the GOES-R life-cycle and key decision points with
those of NASA Procedural Requirement (NPR) 7120.5D. Adopted in March 2007, the directive
prescribes how the agency will formulate and implement space flight programs and projects.
Although issued after the GOES-R program began, the basic life-cycle steps and associated
oversight—including thorough reviews and a requirement for independent assessments before
key decision points—represent long-held practice in satellite acquisition. 7

Viewing decision point B solely as a procurement milestone, the Department and NOAA did not
possess sufficient cost, schedule, and technical information regarding the program to make a
fully informed decision as to whether to proceed or how best to do so. By the time these
organizations were confronted with the findings from an independent assessment—which
showed program cost estimates soaring and a flawed acquisition approach—it was too late to
recover from the impacts of its weak decision-making process at decision point B. Although key
decision point reviews are held at Commerce for the purpose of making contracting decisions,



5
  U.S. Department of Commerce, December 9, 1997. Major Systems Acquisitions for the Department of Commerce,
Department Administrative Order 208-3.
6
  NASA currently uses NASA Procedural Requirement 7120.5D, NASA Space Flight Program and Project
Management Requirements, March 6, 2007; DOD uses National Security Space Acquisition Policy, Number 03-01,
December 27, 2004.
7
  NASA’s previous policy (NPR 7120.5C) did not use the term “key decision point;” however, it required similar
reviews. The term was introduced for the first time in NPR 7120.5D.

                                                      8
U.S. Department of Commerce                                                                              Final Report OSE-18291
Office of Inspector General                                                                                       November 2007

accepted satellite acquisition practice is to hold such reviews at the end of life-cycle phases to
determine a program’s readiness to proceed to the next phase. As a result, the GOES-R plan calls
for all of its key decision point reviews to be held relatively early in the program and omits
decision points at critical downstream junctures.

Figure 5. Comparison of GOES-R and NASA Life-Cycle Phases, Major Milestones, and Key Decision Point
Reviews

GOES-R Life-Cycle
             Formulation                                                   Implementation
   Concept/      Program Definition                                    Acquisition and Operation
  Architecture   and Risk Reduction
  Development
                                                                        
                         SRR       SCR                   PDR            CDR
                     B                    C/D

NASA Life-Cycle
                        Formulation                                                      Implementation
            Concept and             Preliminary                Final Design                 System Assembly,             Operations
            Technology        Design and Technology                and                    Integration & Test, and           and
            Development             Completion                  Fabrication                       Launch                Sustainment
                                                                                                      
               SRR   MDR                        PDR                 CDR/       SIR               ORR      FRR/
    A                          B                       C            PRR              D                    LRR       E

Legend
                                           SRR        System Requirements Review           PRR      Production Readiness Review
              Key Decision Point Review    SCR        System Concepts Review               SIR      System Integration Review
                                           MDR        Mission Definition Review            ORR      Operational Readiness Review
             Major Milestone Review       PDR        Preliminary Design Review            FRR      Flight Readiness Review
                                           CDR        Critical Design Review               LRR      Launch Readiness Review

Source: GOES-R Systems Engineering Management Plan, January 31, 2006; NOAA Program Management Council monthly
briefings; NASA Procedural Requirement 7120.5D, NASA Space Flight Program and Project Management Requirements, March
6, 2007.



A. Lack of Accepted Life-Cycle Process Left Oversight Officials Without Sufficient Program
   Information for First Key Decision Point Review

At the first major review of the GOES-R program (key decision point B) in October 2005, senior
Department and NOAA officials did not have the information they needed to make a sufficiently
informed decision about the path forward for GOES-R, namely, thorough evaluations of cost,
schedule, technological readiness, acquisition strategy, and risks that were as accurate as possible
at that stage of the program. The objective of decision point B was to obtain approval to award
three contracts to further define the system architecture and concepts. When key decision point B
arrived, significant uncertainties remained regarding the system concept, achievable capabilities,
and acquisition strategy; 8 and NOAA planned to use the contracts to help address these


8
  Commerce and NASA had not officially agreed to the acquisition strategy. Only an interim agreement had been
signed by NASA’s Associate Administrator for Science Mission Directorate and NOAA’s Deputy Under Secretary
of Commerce for Oceans and Atmosphere (Memorandum for the record, NASA, May 25, 2005).

                                                                9
U.S. Department of Commerce                                                 Final Report OSE-18291
Office of Inspector General                                                          November 2007

uncertainties. We do not disagree with the decision to award contracts for this purpose. However,
given the Department’s and NOAA’s inexperience in overseeing and managing satellite
acquisitions, more comprehensive information was needed, which could be provided by way of
independent assessments by satellite experts, to help identify any shortcomings, determine
whether the appropriate work scope was being planned for the upcoming contracts, and evaluate
the program’s readiness to move forward. Lacking such information and assessments, the
Department approved going forward at decision point B without sufficient reliable information to
ensure the program was proceeding as effectively as possible.

The shortcomings of decision point B may be explained, in part, by the Department’s general
approach to key decision points. At Commerce, key decision points are treated solely as
procurement milestones, held for the purpose of making contracting decisions, and are not based
on comprehensive program reviews. In contrast, NASA’s and DOD’s policies for satellite
acquisitions place key decision points at specific program maturity assessment junctures
occurring at the end of life-cycle phases to determine whether a program is ready to proceed to
the next phase. This determination is made on the basis of highly-structured reviews against
established program management, technical, cost, and schedule criteria. While acquisition
strategies and contract actions are frequently authorized at key decision points, they are but one
of several critical areas examined. Key decision point B on GOES-R, conducted to authorize
award of contracts to help address GOES-R program uncertainties, was held at a much earlier
stage in the program’s life-cycle than stipulated by NASA and DOD policies, and as noted, with
no independent assessment and less comprehensive review.

Indeed, a critical feature of the life-cycle process—and one common to satellite acquisitions at
both NASA and DOD—is the requirement for providing oversight officials with independent
expert assessments at key program decision points. At these points, the decision authority
reviews the program to determine its readiness to progress to the next phase of the system life-
cycle. Independent assessments are designed to give decision makers objective information for
making this determination. NASA policy requires the first independent review before beginning
preliminary design (key decision point B); DOD requires such reviews prior to concept
development (key decision point A). Regardless of whether NOAA’s request to award the
program definition/risk reduction contracts should be considered a key decision point, the
associated review needed better preparation and oversight—incorporating detailed programmatic
assessments and independent evaluations of cost, schedule and technical parameters—in order to
ensure effective planning of the contracts’ work scope, as well as more accurate decision-making
information for the Department in support of the procurement request.

Independent assessment confirmed unrealistic cost estimates and management weaknesses.
NOAA recognized the need for independent review soon after the program definition effort
began. In May 2006, roughly 7 months into the program definition phase, the independent
review team began its assessment of GOES-R, ultimately confirming information coming from
the contractors, an independent cost estimate, and the GOES-R program office: that the program
as it was then defined would cost nearly double the original estimate; the HES was posing
unacceptable cost and technological risks; and GOES-R would be better managed under the
structure used for prior GOES acquisitions—that is, with NOAA handling the ground segment
and NASA handling the space segment. Even before the team delivered its final report in

                                                10
U.S. Department of Commerce                                                           Final Report OSE-18291
Office of Inspector General                                                                    November 2007

January 2007, NOAA had made major changes—among them, eliminating the HES and two
satellites to bring program costs closer to original estimates, planning for a satellite platform that
can fly both with and without a sounder, and revamping the management structure to give NASA
control of the space segment. But these changes cost the agency time and money: $17 million to
redefine the overall system architecture and management structure, and a 9-month delay in the
planned schedule for awarding the space and ground contracts, which has reduced development
time and increased the risk of a gap in satellite coverage. They also delayed the planned
availability of advanced sounding capabilities.

Without more extensive, reliable information at key decision point B, the Department and
NOAA missed the opportunity to recognize earlier the need for at least some of these changes,
potentially avoiding subsequent rework—and moving system development along more quickly
and at a lower cost. For example, an independent cost evaluation would have revealed to all
participants that the life-cycle cost estimate in support of key decision point B was unrealistically
low as it was based on, among other things, outdated inflation indices (FY 2004 rather than
FY 2005 indices), implausibly low software and algorithm development estimates, and
abbreviated satellite lifetimes. In addition, in the summer of 2005, NOAA had developed a
higher estimate based on more realistic assumptions, and had also contracted for an independent
cost estimate, which though in its early stages at decision point B, was already suggesting
significantly higher costs. Department officials chose to use the lower estimate for the decision—
which was developed in 2004 and was consistent with previously submitted Congressional
budget requests for FY 2006 and FY 2007—explaining that the program was still in a state of
flux and that ample opportunities remained to make engineering trade-offs that would allow it to
stay within budget.

Absence of policies and procedures for satellite acquisitions left the Department and NOAA
without a guide for major systems oversight. Effective decision making at point B was further
impeded by insufficient acquisition life-cycle procedures, including oversight mechanisms.
Space acquisitions entail complex program management, technical, cost, schedule, contract, and
budget issues that must be addressed in an integrated manner, but current Commerce policy for
acquiring major systems 9 lacks detail for establishing the kind of oversight procedures and
evaluation criteria a complex project like GOES-R requires. This helps explain why the
Department had no roadmap for establishing effective oversight mechanisms. In response to a
recommendation from GAO, 10 Commerce has worked to revise the policy but at this writing it
has not been completed. This policy is not only needed for space acquisitions but for additional
ongoing and future major system acquisitions including systems for the decennial census and
other weather systems. Because the Department is uncertain when the policy will be finalized
and implemented, it needs to define now how it will effectively monitor GOES-R throughout the
duration of the program.




9
 The Department defines major systems as those having a life-cycle cost of $100 million or greater.
10
  U.S. Government Accountability Office, June 2006. NOAA: Next Steps to Strengthen Its Acquisition Function,
GAO-06-594, Washington, D.C.: GAO.


                                                      11
U.S. Department of Commerce                                                       Final Report OSE-18291
Office of Inspector General                                                                November 2007

Also at decision point B, NOAA had not yet established a program management council to
review monthly progress on GOES-R and had not implemented procedures for senior officials to
make decisions about requirements trade-offs based on cost, schedule, technological risks, and
user needs and about its readiness to award contracts.

Steps toward improvement. NOAA has improved oversight of the program since key decision
point B. It established a program management council, which held its first meeting in January
2006. Chaired by the Deputy Under Secretary for Oceans and Atmosphere and staffed with
senior officials from NOAA and NASA, the council meets monthly to assess GOES-R progress
and the impact of proposed activities and changes. The council provides a forum for involving
stakeholders in GOES-R requirements decisions, such as the development of ABI products to
compensate for the lost HES sounder capabilities. It has been instrumental in NOAA’s adopting
recommendations from the independent review team and in planning for the key decision point
C/D review. The council will also give senior NOAA and Commerce officials input and
recommendations at this review and major milestone reviews.

NASA’s Goddard program management council also convenes monthly and complements
NOAA’s programmatic, user-oriented reviews with detailed reviews of technical aspects of
GOES-R instruments and the satellite platform. NASA conducts independent technical and
engineering assessments at GOES-R major milestones reviews as well and will do so for key
decision point C/D.

B. Decision Point C/D Provides Critical Review, But Does Not Obviate Need for Future
   Key Decision Points

In NASA and DOD space acquisition processes,                 Scope of KDP C/D Independent Reviews
decision point C occurs at the completion of              1. Adequacy of management plans
preliminary design to assess a program’s                  2. Technical requirements
readiness to proceed to final design. A separate          3. Risk identification and mitigation plans
                                                          4. Program resources and processes
decision point D is conducted before the system is        5. Systems engineering and mission assurance
built. GOES-R, however, is roughly 2 years from           6. Acquisition activities (e.g., request for
completing preliminary design and even further                proposals, source selection plans, incentive
from being ready to build the first satellite, but the        plans)
planned final decision point—decision point               7. Projects cost, schedule, and budget
C/D—is expected to occur soon. The purpose of           Source: NOAA
this decision point is to obtain Department
authorization for releasing solicitations for the multibillion-dollar space and ground segment
contracts through which these activities will be implemented. Notwithstanding the lack of
maturity of GOES-R, we agree it is important for the Department and NOAA to thoroughly
review all aspects of the program in order to make well-informed decisions about how to proceed
before releasing the solicitations for GOES-R. Given the significant program changes and
magnitude of investment associated with these contracts, treating this procurement milestone as a
key decision point has considerable merit, and decision making should give strong consideration
to the findings and recommendations resulting from the independent assessments that have now
been performed by space acquisition experts. However, after decision point C/D, additional key



                                                   12
U.S. Department of Commerce                                                       Final Report OSE-18291
Office of Inspector General                                                                November 2007

decision points are needed at the end of subsequent life-cycle phases to determine GOES-R’s
readiness to proceed.

The current life-cycle process defined for GOES-R diverges from NPR 7120.5D by omitting key
decision points and reviews prior to final design and fabrication (decision point C in NPR
7120.5D); system assembly, integration and test, and launch (decision point D); and operations
and support (decision point E). One important reason for decision point C at NASA is to approve
the formal cost, schedule, and technical baseline—called the “integrated baseline”—which is
established after completion of preliminary design. This baseline becomes the reference point for
tracking changes and assessing the impact of management and technical decisions. Program
officials report significant deviations to senior management and a recovery plan is developed.
(Figure 5 illustrates the difference between GOES-R decision points and NASA practices.)

NASA incorporated additional decision points after point C in response to a GAO review of its
acquisition policies. GAO recommended these reviews to determine whether the detailed design
will meet customer requirements and cost and schedule targets (decision point C) and to assess
whether the product can be manufactured within cost, schedule, and quality targets (decision
point D). 11 NASA’s position at that time—and a viewpoint recently expressed to us by
Department and NOAA officials—is that decision point D is not needed because of the small
number of satellites produced. GAO disagreed, citing the high cost of building systems, as well
as the high cost of system failure, and NASA ultimately incorporated this decision point into its
new process.

However, neither NOAA nor the Department plans to incorporate these additional key decision
points, which are integral to NASA’s process. Given the lack of equivalent Department or
NOAA processes, we believe it is imperative that these decision points be incorporated into the
GOES-R program to align oversight with accepted practices.

C. Procedures for Decision Point Reviews Are Inadequate for Providing Decision Makers
   With Needed Information

As decision authority, the Department needs to be familiar with complex satellite programs and
their review process, but Commerce lacks adequate capacity and experience for effective
oversight of the highly technical and complex issues of space acquisitions and access to
independent reviewers of its own. In the absence of these requisites, Commerce should consult
directly with NOAA and NASA independent reviewers as a key component of the decision
making at each decision point. Adequate preparation and consultation with experts will help the
Department identify any serious program weaknesses and determine the best path forward for
GOES-R. In addition, both the Department and NOAA should use NPR 7120.5D as guidance to
better focus these reviews on the key objectives and products of each program phase.




11
  U.S. Government Accountability Office, December 2005. NASA, Implementing a Knowledge-Based Acquisition
Framework Could Lead to Better Investment Decisions and Project Outcomes, GAO-06-218. Washington, D.C.:
GAO.

                                                   13
U.S. Department of Commerce                                                              Final Report OSE-18291
Office of Inspector General                                                                       November 2007

In January 2007, the GOES-R independent review team issued a report recommending that the
Department consider delegating decision authority for GOES-R at key decision point C/D to the
Under Secretary for Oceans and Atmosphere. The report noted that doing so should not prevent
certain Department organizations, such as the Acquisition Review Board, from carrying out their
responsibilities. 12 NOAA subsequently requested the delegation; the Deputy Secretary responded
that he would not forward the request to the Secretary until certain actions were taken, including
clarifying the authorities NOAA is asking the Department to delegate. Given the Department’s
minimal major systems acquisition policy and the lack of clearly defined roles, responsibilities,
and procedures for decision point reviews, we agree that the Department and NOAA’s
authorities for cost, schedule, programmatic, and contracting decisions must be clearly delineated
if decision authority is to be delegated. And at all decision points, regardless of whether the
decision authority is the Department or NOAA, the rationale for any decisions made on the basis
of assumptions or findings different from those of the independent assessments (including cost)
should be clearly documented and the rationale explained.

D. NOAA Has Not Adapted Relevant NASA Processes to GOES-R

In response to concerns raised by the independent review team, NOAA agreed in January 2007
to use the soon to be approved NPR 7120.5D as the template for defining GOES-R management
roles, responsibilities, and processes. The MOA between NOAA and NASA states that guidance
for GOES-R processes will be derived from NPR 7120.5D and documented in the Management
Control Plan, and that the space segment will be managed in accordance with the directive as
well. But the agreement is silent on NOAA’s use of the directive for the ground segment, nor has
NOAA defined how these processes will apply to that segment or to the overall program,
although the directive itself makes adherence to its requirements mandatory for NASA’s work on
GOES-R. 13

NOAA should ensure overall program management and ground segment activities follow the
principles of NPR 7120.5D, and should clearly identify in the Management Control Plan or
related documentation how these principles will be applied to that segment. In particular, NOAA
should delineate for each project phase how the directive will be applied to project technical
activities; planning, costing, and scheduling activities; cost and schedule control activities; and
key decision point readiness activities.




12
   Geostationary Operational Environmental Satellite, Series R (GOES-R) Independent Review Team (IRT)
Report, January 3, 2007, p. 22.
13
   NPR 7120.5D, “NASA Space Flight Program and Project Management Requirements,” Section 3.5, states
that “[i]f the sponsoring agency does not want NPR 7120.5D requirements (or a subset of those requirements)
to be followed, then the inter-agency MOU/MOA or the contract must explicitly identify those requirements
that will not be followed, along with the substitute requirements for equivalent processes and any additional
program/project management requirements the sponsoring agency wants. The Center must obtain a formal
waiver by the NASA CE [chief engineer] for those NPR 7120.5D requirements that are not to be followed, or
the Agency will direct the Center not to accept the work.”

                                                        14
U.S. Department of Commerce                                                              Final Report OSE-18291
Office of Inspector General                                                                       November 2007



E. The Department Lacks Procedures For Reporting and Approving Major Deviations From
   and Changes To Baseline

As noted previously, the integrated baseline becomes the reference point for tracking changes
and assessing the impact of management and technical decisions. Space acquisition legislation,
policies, and procedures—including those of NASA and DOD—have provisions that stipulate
what constitutes a significant cost overrun and schedule slippage, and associated procedures for
reporting and managing such variances. 14 These provisions are intended to ensure that senior
officials are notified of significant variances and determine how best to handle them. For space
acquisitions, a special review is typically conducted when actual costs exceed estimates by 15
percent or the program is 6 months or more behind schedule. Senior officials choose the review
team participants, who typically include experts independent of the program. The goal of this
review is to develop a recovery plan approved by senior officials and possibly the key decision
point authority. Commerce has not described its requirements and procedures for reporting and
managing variances for the GOES-R space and ground segments. The Department and NOAA
also need to determine thresholds for holding special decision reviews when considering
enhancements to sensing capabilities.

Recommendations

The Deputy Secretary should direct appropriate management officials to do the following:

1. Plan for additional GOES-R key decision point reviews in accordance with NPR 7120.5D
   guidance.

2. Conduct key decision point reviews in a manner consistent with NPR 7120.5D guidance,
   to include identifying the decision criteria as well as the roles and responsibilities of those
   involved, what information will be presented for the decision, and how independent
   reviewers will be consulted and their assessment results used.

3. If key decision point C/D or subsequent decision points are delegated to NOAA, ensure, in
   coordination with NOAA, that the Department and NOAA’s authorities are clearly
   delineated.

4. At all key decision points, ensure any decisions made on the basis of assumptions or findings
   that differ from those of the independent assessments, including the independent cost
   estimate, are documented and the rationale explained.

5. Establish, in coordination with NOAA, thresholds and procedures for reporting and
   approving major deviations from GOES-R’s capability, cost, and schedule baseline, as well
   as enhancements to the baseline.



14
  The Office of Management and Budget is currently drafting a policy for space acquisitions requiring notification
in the event of significant cost growth and schedule delays.

                                                        15
U.S. Department of Commerce                                             Final Report OSE-18291
Office of Inspector General                                                      November 2007

6. Complete and implement the Department’s major system acquisition policy. For satellite
   programs, ensure the policy incorporates the key decision points in NPR 7120.5D and
   requires comprehensive independent reviews at all key decision points.


The Under Secretary for Oceans and Atmosphere should direct appropriate management
officials to do the following:

1. If the agency receives decision authority for decision point C/D and subsequent decision
   points, plan and document NOAA’s approach as described in recommendation 2 above to the
   Deputy Secretary.

2. Describe in the Management Control Plan or related documentation how NPR 7120.5D will
   be used for managing and overseeing the overall GOES-R program and ground segment, to
   include identifying planned deviations from NPR 7120.5D and describing the rationale for
   the deviations and compensating mechanisms that will be used.




                                             16
U.S. Department of Commerce                                                           Final Report OSE-18291
Office of Inspector General                                                                    November 2007



         DEPARTMENT AND NOAA RESPONSE AND OUR EVALUATION

The Office of the Secretary and the Under Secretary of Commerce for Oceans and Atmosphere
provided written comments on a draft of this report (see appendixes I and II). These comments
and our evaluation are discussed below.

Department Response

Department officials expressed support for our intent to encourage best practices in satellite
acquisition. But they believe our report does not properly distinguish the Office of the
Secretary’s oversight and policy role from NOAA’s program management and execution role
and argued that the procedures we recommend are not used by NASA at the Secretarial level.
The Department is incorrect on this point: The NASA Administrator’s office—its Secretarial
equivalent—is the decision authority for all projects that, like GOES-R, have life-cycle costs
greater than $1 billion, and in such cases, does in fact use the recommended procedures.

The Department asserted that NASA and DOD’s life-cycle acquisition procedures (NPR
7120.5D and NSS 03-01, respectively) are not implementations of OMB Circular A-109
requirements, maintaining instead that they prescribe procedures that should be implemented at
the program level. Again, this is incorrect. Both NASA and DOD acquisition life-cycle processes
are implementations of OMB Circular A-109. 15

Consistent with our report, the Department stated that the purpose of its key decision points is to
review procurement decisions. Officials said they will use decision points along with established
oversight procedures—quarterly reviews, annual budget reviews, and periodic acquisition board
and information technology board reviews—for GOES-R. Our report points out that—unlike
NASA and DOD practices—Commerce’s various reviews do not provide the comprehensive,
integrated appraisal of budget, cost, schedule, and technical risk at program maturity assessment
junctures (key decision points). However, since the Department believes the key decision points
in the satellite acquisition life cycle are more appropriately handled by NOAA, we believe it
should delegate decision authority for KDP C/D to NOAA, which is implementing procedures to
improve oversight based on the NASA directive.

The Department contended that it was sufficiently prepared for KDP B, arguing that the
Secretary made a well-informed decision at this milestone to authorize the program definition
and risk reduction (PDRR) contract awards and that the PDRR contractors would provide
information needed to resolve program uncertainties and move the program forward. We have
reworded the finding to avoid the implication that oversight officials failed to plan for decision
point B. However, our report points out that information available at KDP B about program
uncertainties—HES viability, satellite architecture, and acquisition approach—as well as
projections of sizeable cost growth should have been reviewed and raised a red flag for both the
Department and NOAA. For example, before KDP B, the program office was reporting major


15
  See Department of Defense, National Security Space Acquisition Policy No. 03-01, December 27, 2004, page 5,
and NASA FAR Sup 1834, November 2006, Section 1834.003.

                                                      17
U.S. Department of Commerce                                                 Final Report OSE-18291
Office of Inspector General                                                          November 2007

technical risks and cost increases on HES to the NASA program management council, raising
questions about whether HES could meet user requirements. It was also reporting that
uncertainty about the spacecraft architecture was impacting instrument development and in turn
pushing out the launch readiness date past 2012. Projections were indicating that costs could
grow by more than a billion dollars over the amount stated in the FY 2007 budget—an estimate
that proved to be conservative. A more structured, comprehensive, and integrated review
including assessments by independent experts would have raised these issues. The decision to
authorize the PDRR contract awards could then have addressed the need to modify the work
scope to resolve these uncertainties before proceeding to concept development (option 1 of the
PDDR contract). Initiating concept development prematurely contributed to $17 million of
rework and a 9-month delay in awarding the space and ground contracts.

The Department objected to our use of the term “cost growth,” contending that the higher
estimates developed in the summer of 2005 do not represent cost growth because they were
based on early concepts, which NOAA expected to change during the course of the PDRR
contract. We used the term to describe the $17 million of rework discussed previously, not to
characterize the increased cost estimate, and have modified our report to clarify this point.
However, the higher estimates were clear indicators that costs were growing, a consideration that
should have been heeded at KDP B. While we do not disagree with the Department’s statement
that the $17 million in rework supported appropriate decisions about the acquisition strategy, this
expenditure would not have been necessary if rework had been avoided in the first place.

The Department also contended that the change in the contract award date was not a delay but
was instead to allow NOAA to obtain better information, and also reflected the postponement of
the launch need date for the first satellite from 2012 to 2014. However, NOAA realized at
KDP B that with a planned award date for the space and ground contracts of August 2007, it
needed to push out the launch date to 2014 to allow for adequate satellite development time (80
months). The delay we are referring to is the subsequent change in the award date for these
contracts to May 2008. As our final report notes, this 9-month delay reduces development time
and increases the risk of a gap in satellite coverage. This increased schedule risk has been
confirmed by the recent independent evaluation of GOES-R’s cost and schedule.

Commerce officials maintained that the Department supports the use of best practices regardless
of their source, but pointed out that the practices we recommend have long been used without
completely preventing serious schedule delays and cost overruns. They also suggest they are
being criticized for failing to apply NASA procedures at KDP B that were not published until
2 years later. The NASA and DOD procedures we recommend embody best practices developed
from these agencies’ 50 years of satellite acquisition experience. And in citing NASA’s current
policy, which was released in March 2007, our report states that it represents long-held practice,
and that the policy in effect at the time of KDP B—while not using the term “key decision
point”—did require similar reviews.

The Department has no comparable experience to NASA’s and DOD’s and has offered no
alternative best practices. The 2003 Final Report of the Defense Science Board (DSB) Task




                                                18
U.S. Department of Commerce                                                              Final Report OSE-18291
Office of Inspector General                                                                       November 2007

Force on Acquisition of National Security Space Programs identifies the basic causes of the
significant cost growth and schedule delays in programs like GOES-R. 16 NASA and DOD
procedures are designed to mitigate these causes. While weaknesses in the application of these
procedures are often a problem, the Department has offered no arguments suggesting that the
principles embodied in the procedures are not sound.

Recommendations to the Department

The Deputy Secretary should direct appropriate management officials to do the following:

     1. Plan for additional GOES-R key decision point reviews in accordance with NPR 7120.5D
        guidance.

     2. Conduct key decision point reviews in a manner consistent with NPR 7120.5D guidance,
        to include identifying the decision criteria as well as the roles and responsibilities of those
        involved, what information will be presented for the decision, and how independent
        reviewers will be consulted and their assessment results used.

Commerce officials agreed that additional key decision point reviews should occur but believe
that Department reviews should not be in accordance with NPR 7120.5D. Rather, NOAA should
apply effective procedures in the Management Control Plan for the program, including NPR
7120.5D, as appropriate, while the Department will continue to follow its existing procedures
and monitor the program via quarterly reviews, budget assessments, and evaluations conducted
by the Information Technology Review Board and Acquisition Review Board.

The response suggests that NOAA, rather than the Department, should conduct additional
decision point reviews. We ask Commerce officials to clarify their position on additional key
decision points in their action plan. Since the Department believes its oversight procedures need
not be changed, we encourage it to delegate decision authority for KDP C/D to NOAA, which is
working to manage and oversee GOES-R in accordance with best practices.

     3. If key decision point C/D or subsequent decision points are delegated to NOAA, ensure,
        in coordination with NOAA, that the Department and NOAA’s authorities are clearly
        delineated.

The Department concurred with this recommendation and stated that it will continue to exercise
its responsibilities to oversee the GOES-R program at key decision points.




16
  These are (1) cost has replaced mission success as the primary driver in managing space development programs,
(2) unrealistic estimates lead to unrealistic budgets and unexecutable programs; (3) undisciplined definition and
uncontrolled growth in system requirements increase cost and schedule delays; (4) government capabilities to lead
and manage the space acquisition process have seriously eroded; and (5) industry has failed to implement proven
practices on some programs.


                                                        19
U.S. Department of Commerce                                                Final Report OSE-18291
Office of Inspector General                                                         November 2007

The Department’s agreement to ensure that authorities are clearly delineated is responsive to our
recommendation. We interpret the Department’s statement that it will continue to exercise its
GOES-R oversight responsibilities at key decision points as referring only to KDP C/D since
there are no further decision points in its current process. We ask the Department clarify its
response in the action plan.

   4. At all key decision points, ensure any decisions made on the basis of assumptions or
      findings that differ from those of the independent assessments, including the independent
      cost estimate, are documented and the rationale explained.

Department officials stated that this recommendation is not appropriate for the Secretarial level
but that NOAA’s GOES-R program office should respond to independent assessments and those
responses should inform subsequent NOAA and Department decisions. The Department asserted
that multiple layers of independent review would be wasteful and duplicative.

This recommendation is intended for implementation by the decision authority, be it a
Department official or NOAA official, and thus should be implemented at the Secretarial level if
Commerce chooses to retain decision authority for KDP C/D. The recommendation goes beyond
simply responding to independent assessments: For transparency and accountability, deviations
in decision making from what is found by independent assessments should be clearly
documented by the decision authority. The Department does not address this point, and we
request that it do so in the action plan. We do not advocate multiple layers of independent
review. Rather, our report states that the Department should consult with NOAA’s and NASA’s
independent experts to assist in its deliberations at key decision points.

   5. Establish, in coordination with NOAA, thresholds and procedures for reporting and
      approving major deviations from GOES-R’s capability, cost, and schedule baseline, as
      well as enhancements to the baseline.

The Department stated that a new major systems acquisition policy is being drafted, which will
direct operating units to put appropriate procedures in place. It explained that it currently
monitors NOAA’s execution of GOES-R through monthly reports, quarterly briefings, and
budget reviews that track earned value, schedule, and performance.

It is unclear from this response whether the Department agrees that establishing thresholds and
procedures for reporting and approving major baseline deviations and enhancements is
appropriate. This is a best practice advocated by NASA, DOD, and OMB, among others. We
urge the Department to include this requirement in its new policy.

   6. Complete and implement the Department’s major system acquisition policy. For satellite
      programs, ensure the policy incorporates the key decision points in NPR 7120.5D and
      requires comprehensive independent reviews at all key decision points.

Department officials partially concurred with this recommendation, stating that in developing the
acquisition policy, they would consider a key decision point structure, along with other
approaches.

                                               20
U.S. Department of Commerce                                               Final Report OSE-18291
Office of Inspector General                                                        November 2007



Best practices for complex systems development designate key points at the end of major project
phases to assess whether the project is on track and ready to proceed to the next phase, or
whether remedial action is needed. Moving to subsequent phases without fixing significant
problems results in costly rework and delays. The periodic or episodic reviews cited in the
Department’s response to our first recommendation have their place and can complement—but
not substitute for—key decision point reviews.

NOAA Response

NOAA responded that overall the draft report was fair and provided an accurate description of
the history of the GOES-R program.

Recommendations to NOAA

The Under Secretary for Oceans and Atmosphere should direct appropriate management
officials to do the following:

   1. If the agency receives decision authority for decision point C/D and subsequent decision
      points, plan and document NOAA’s approach as described in recommendation 2 above to
      the Deputy Secretary.

   2. Describe in the Management Control Plan or related documentation how NPR 7120.5D
      will be used for managing and overseeing the overall GOES-R program and ground
      segment, to include identifying planned deviations from NPR 7120.5D and describing the
      rationale for the deviations and compensating mechanisms that will be used.

NOAA concurred with these recommendations. It stated that it is working with NASA to finalize
the Management Control Plan, which will document the approach for decision point C/D and
subsequent decision points, and will document how NPR 7120.5D will be followed for all parts
of the GOES-R program. NOAA also stated that it intends to meet all Commerce oversight
requirements such as obtaining Acquisition Review Board approvals.

The actions described by NOAA are responsive to our recommendations.




                                              21
                                           ~...
APPENDIX I: OFFICE OF THE
                                            'r."t.tff OF
                                                           ,;,




                                                                          GENERAL COUNSEL OF THE
                                                                          UNITED STATES DEPARTMENT OF COMMERCE
SECRETARY'S RESPONSE                            1!J
                                               &)-~TES Of .,
                                                                          Washington, D. C. 20230


                                                                                  OCT 1 8 2007



        OCT 1   8 2nD?




        MEMORANDUM FOR:              Judith J. Gordon
                                     Assistant Inspector General
                                         for Systems Evaluation




        FROM:                        John J. Sullivan


                                                                  (J1J'
        SUBJECT:                     Office of the Secretary Response to the Office of Inspector
                                     General' s Draft Report Successful Oversight ofGOES-
                                     Requires Adherence to Accepted Satellite Acquisition
                                     Practices


        Thank you for the opportunity to review and comment on the Office of Inspector
        General' s draft report Successful Oversight ofGOES-R Requires Adherence to
        Accepted Satellite Acquisition Practices (Draft Report No. OSE- 18291). I enclose the
        Office of the Secretary s comments on this draft report.

        Attachment




                                                                 22
                               Department of Commerce
                                Office of the Secretary
                   Comments on the Draft OIG Report Entitled
      Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
                                 Acquisition Practices
                (Draft Inspection Report No. OSE- 182911August 2007)


General Comments

The Department of Commerce appreciates the opportunity to review this draft report on
the Geostationary Operational Environmental Satellite Series-R (GOES- R) program. The
Department acknowledges that the original GOES-R acquisition plan was problematic in
certain respects , but the new , revised acquisition strategy has addressed those concerns
and reduced program risk. We appreciate the effort expended by the Office of the
Inspector General (OIG) in surveying this critically important acquisition. We are
moreover , very pleased that the OIG' s draft report supports the current program direction
and faults only procedural deficits that NOAA-with the Department' s support and
encouragement-is now addressing at the appropriate level.

Overview

The Department supports the intent of the draft report to encourage best practices in
satellite acquisition , and is continuing to work with NOAA to substantively and
procedurally strengthen programmatic oversight. The Department is concerned
however, that the recommendations in the draft report do not properly distinguish
between the oversight and policy role of the Office of the Secretary (OS) and the program
management and execution role of the National Oceanic and Atmospheric Administration
(NOAA). It would not be appropriate to adopt the procedural recommendations within
OS. The National Aeronautics and Space Administration (NASA) procedures
recommended in the draft report are not used at the Secretarial level by NASA itself.
Implementation of those procedures by OS , as opposed to NOAA , would diminish the
flexibility that OS requires to oversee NOAA' s management of the GOES-R program and
to provide policy guidance and direction.

The " key decision point" (KDP) process discussed in the draft report is an acquisition
approval process set forth in OMB Circular A- I09 and Department Administrative Order
(DAO) 208- 3. It was applied by OS at NOAA' s request , and is just one of the processes
used by OS to oversee NOAA' s management of the GOES-R program. The A- I09
KDP' s should not be confused with the key decision points or gateways identified in
NASA or Department of Defense (DOD) program procedures. As implemented by those
agencies , a key decision point/gateway mayor may not be associated with a procurement
decision point , but is always associated with the need to make a critical programmatic
choice before the project is allowed to proceed to the next phase. Moreover , the A- I09
KDP process does not stand alone: In addition to it, the Department's established
oversight processes include reviews connected with the annual budget , Acquisition




                                           23
 Review Board , and/or the Commerce Information Technology Review Board. All
 these processes allow the various Secretarial offices to apply their expertise and keep
 senior policy officials well- informed.

 Given NOAA' s numerous reviews and periodic briefings that were made directly to
 senior policy officials , OS was aware of the issues facing the program and was fully
 prepared to make a procurement decision on NOAA' s recommendation at the time of
 KDP B. Rather than insufficiently preparing the Department for KDP B , the process
 followed by the Office of the Secretary worked precisely as it should , and achieved its
 intended purpose of providing NOAA with the intelligence needed to make fully-
 informed , risk-reducing amendments to the GOES- R program. The process also
 identified weaknesses in NOAA' s readiness for the KDP B decision and mandated that
 certain actions be completed prior to the Secretary making a determination. Those
 actions were completed and the Secretary made a fully informed decision to authorize the
 award of the preliminary design and risk reduction contracts.

Acquisition Model

The draft report assumes that NASA or DOD practices for satellite acquisition are the
benchmark standards. Although these practices have long been used in meeting mission
requirements , they have not completely prevented sometimes-serious schedule delays and
cost overruns that have been well- documented in recent Government Accountability
Office (GAO) reports . The Department supports the use of best practices for the GOES-
R acquisition, regardless of the source.

The draft report appears to criticize the Department for not applying NASA procedures in
the KDP B review conducted in 2005. However, the procedures that OIG recommends
       NPR 7120.  , were not published by NASA until 2007. Indeed , these procedures
were developed in response to GAO criticism that the
                                                     previous procedures (NPR
7120. 5C) lacked key criteria and a knowledge-based acquisition framework? Had the
Department employed the then-extant NPR 7120. 5C procedures-since proven
inadequate-flaws may well have resulted in the decision process.
Response to Maior Findings of the Report

The Failure to Follow Accepted Space Acquisition Management Practices
Contributed to GOES- R Cost Growth and Schedule Delays


I See GAO reports
                          , NASA: Lack of Disciplined Cost-Estimating Processes Hinders Effective Program
Management , May 2004 , GAO- 04- 642. Space Acquisitions Actions Need to Expand and Sustain Use of
Best Practices , April 19 , 2007 , GAO- 07- 730T. DOD Needs to Take More Action to Address Unrealistic
Initial Cost Estimates of Space Systems       GAO- 07- , November 17 2006
2 See GAO report NASA Implementing a Knowledge-
                                                   Based Acquisition Framework Could Lead to Better
Investment Decisions and Project Outcomes , GAO- 06- 2l8 , December 2005.




                                                       24
Cost Growth

The draft report finds that the Department or NOAA should have obtained " more
extensive , reliable information at key decision point B." But the purpose ofKDP B was
to award Program Definition and Risk Reduction (PDRR) contracts to develop the
information that the draft report identifies as lacking. The PDRR contracts were intended
to identify program risks and help develop life-cycle cost estimates , and they succeeded
in achieving precisely this purpose. The PDRR contracts provided needed information
on the basis of which appropriate actions were taken to reduce risks , such as the removal
of the Hyperspectral Environmental Suite (RES) instrument. In addition, the $17 million
in rework on the PDRR contracts supported appropriate decisions affecting the
acquisition strategy, based on both data coming from the PDRR contractors and an
independent review of the program. There is no nexus between the decision process used
in going forward with the PDRR contracts and NOAA' s subsequent conclusion-
stemming largely from the PDRR contractor s efforts-that cost and schedule estimates
needed revision.

The draft report states that in the summer of2005 , NOAA developed a higher cost
estimate and , in its early stages , an independent cost estimate was pointing toward higher
costs. We do not agree that these estimates represent " cost growth. " The estimates were
based on early concepts for the program s structure , which NOAA expected to change
(and did) during the course of the PDDR contracts.

Schedule Delay

The draft report appears to suggest that the change in the planned schedule for awarding
the space and ground contracts and the lack of advanced sounding represents a schedule
delay for the GOES-R program. In fact , the delay inthe planned schedule for awarding
the space and ground contracts was to allow NOAA to obtain better information on the
program, and reflected a NOAA decision to change the planned launch need date for the
first satellite from 2012 to 2014. The GOES- R schedule will continue to be updated to
account for anticipated life-cycle of the current GOES series. Advanced sounding has
been delayed based on the PDRR work and independent review, which determined that
development of the RES instrument presented the program with significant cost and
operational schedule risk.

Lack of Accepted Life- Cycle Process Left Oversight Officials Unprepared for First
Key Decision Point Review

   109 KDP B was a milestone held for the purpose of making a procurement decision.
The draft report' s claim that oversight officials were " unprepared" is in error; OS was
fully prepared to make an acquisition decision and did so based on NOAA' s assessment
and presentation to the Department that the program was ready to proceed to that next
phase.




                                            25
                      ,"




The Department will work with NOAA to strengthen NOAA' s processes; we understand
that NOAA is adopting relevant procedures from NASA in the Management Control Plan
for GOES- R. If the Department had followed DOD or NASA policies , as the draft report
suggests , there still would not have been a comprehensive program review at the
Secretarial level prior to the release of the PDRR contracts.

 OS Responses to OIG Recommendations

The draft report states The Deputy Secretary should direct appropriate management
officials to do the following:

Recommendation 1: " Plan for additional GOES- R key decision point reviews in
accordance with NPR 7120. 5D guidance.

OS Response: While OS      concurs that additional key decision point reviews should
occur , the Department reviews (unlike NOAA reviews) should not be in accordance with
NPR 7120. 5D. Rather OS will continue to exercise oversight of the program in
accordance with its procedures , and will continue to conduct GOES- R quarterly,
Commerce Information Technology Review Board , Acquisition Review Board , and
budget reviews.

Recommendation 2: " Conduct key decision point reviews in a manner consistent with
NPR 7120. 5D guidance , to include identifying the decision criteria as well as the roles
and responsibilities of those involved , what information will be presented for the
decision , and how independent reviewers will be consulted and their assessment results
used.

OS Response: As stated in response to recommendation 1 , OS concurs that NOAA
should apply effective procedures in the Management Control Plan for the program
including NPR 7120. , as appropriate.

Recommendation 3: " If key decision point C/D or subsequent decision points are
delegated to NOAA , ensure , in coordination with NOAA , that the Department and
NOAA' s authorities are clearly delineated.

OS Response: OS      concurs that any delegation of authority to NOAA should be
coordinated and that NOAA authorities should be clearly delineated. OS will continue to
exercise its responsibility to oversee the GOES-R program key decision points.

Recommendation 4: " At all key decision points ensure any decisions made on the basis
of assumptions or findings that differ from those of the independent assessments
including the independent cost estimate , are documented and the rationale explained.

OS Response: OS concurs that NOAA' s GOES- R        program office should respond to any
independent assessments , and that those responses should inform subsequent decisions by
NOAA and OS. This recommendation is not appropriate for the Secretarial level




                                           26
however. If OS considers NOAA' s independent assessments to be sufficient , requiring
multiple layers of independent review would be wasteful and duplicative.

Recommendation 5:      Establish, in coordination with NOAA , thresholds and procedures
for reporting and approving major deviations from GOES- s capability, cost , and
schedule baseline, as well as enhancements to the baseline.

OS Response:    OS is drafting a new major systems acquisition policy to replace DAO
208-3. That policy will direct the Department's operating units to have in place
appropriate procedures for various acquisitions including satellites. Currently, the
Department reviews NOAA execution of the program through monthly reports , quarterly
briefings and budget reviews that track earned value , schedule and performance.

Recommendation 6:       Complete and implement the Department' s major system
acquisition policy. For satellite programs , ensure the policy incorporates the key decision
points in NPR 7120. 5D and requires comprehensive independent reviews at all key
decision points.

OS Response:     OS concurs in part. The Department's major systems acquisition policy
will be completed by the third quarter of FY 2008. In creating that policy, a key decision
point structure will be considered , along with other approaches.

In response to the draft report recommendations to the Under Secretary for Oceans and
Atmosphere , OS defers to NOAA.




                                           27
APPENDIX II: NOAA'S
RESPONSE




                      28
29
30
